APPENDIX A
Memorandum Adopting Report and Recommendation of the
United States Magistrate Judge
4:18-cv-00610
Order deeming Vexatious Litigant Dkt#156
from the US Eastern District Court of Texas

APPENDIX A

Case 4:18-cv-00610-ALM-CAN Document 156 Filed 09/27/19 Page 1 of 4 Page ID #: 1639

United States District Court
EASTERN DISTRICT OF TEXAS
SHERMAN DIVISION

WANDA L. BOWLING

§

v.

§
§

LESTER JOHN DAHLHEIMER, JR.,
ET AL.

§
§
§

Civil Action No. 4:18-CV-610
(Judge Mazzant/Judge Nowak)

MEMORANDUM ADOPTING REPORT AND
RECOMMENDATION OF UNITED STATES MAGISTRATE JUDGE
Came on for consideration the report of the United States Magistrate Judge in this action,
this matter having been heretofore referred to the Magistrate Judge pursuant to 28 U.S.C. § 636.
On August 9, 2019, the report of the Magistrate Judge (Diet. #129) was entered containing
proposed findings of fact and recommendations that Defendant District Attorney Greg Willis’s
Motion for Sanctions and to Declare Plaintiff a Vexatious Litigant (“Motion”) (Dkt. #56),
Supplement (Dkt. #94), and Second Supplement (Dkt. #120) be granted in part and denied in part.
Having received the report of the Magistrate Judge, having considered Plaintiffs Objection
(Dkt. #136), Defendant’s Response (Dkt. #144), and having conducted a de novo review, the Court
is of the opinion that the Magistrate Judge’s report should be adopted.
RELEVANT BACKGROUND
The facts are set out in further detail by the Magistrate Judge and need not be repeated. i
On October 31,2019, DA Willis filed the present Motion, seeking monetary sanctions, a pre-filing
injunction against Plaintiff, and that Plaintiff be declared a vexatious litigant (Dkt. #56 at pp. 711).

Thereafter, DA Willis twice supplemented his Motion.

On August 9, 2019, the

Magistrate
1 Plaintiff makes several objections to the factual background in the Report (Dkt. #136 at pp. 1-3); upon independent
review, the Court finds Plaintiffs objections to be unfounded and/or irrelevant. Plaintiffs objections related to the
factual recitation contained in the report are overruled.

Case 4:18-cv-00610-ALM-CAN Document 156 Filed 09/27/19 Page 2 of 4 PagelD #: 1640

Judge recommended denying the bulk of the relief requested by DA Willis, but after discussion
determined that a very limited and narrow pre-filing injunction was warranted, requiring Plaintiff
to obtain leave of court before “filing in, or removing to, the Eastern District of Texas the case
Bowling v. Dahlheimer, Case No. 469-51274-2015 in the 469th Judicial District Court in Collin
County (the “Divorce Proceeding”) or any civil action (including any enforcement proceedings)
related to the divorce proceedings between Plaintiff and Defendant John Dahlheimer, Jr.”
(Dkt. #129).

Plaintiff filed Objections to the report on September 9, 2019 (Dkt. #136).

On September 16, 2019, Defendants filed a Response to Plaintiffs Objections (Dkt. #144).
OBJECTIONS TO REPORT AND RECOMMENDATION
A party who files timely written objections to a magistrate judge’s report and
recommendation is entitled to a de novo review of those findings or recommendations to which
the party specifically objects. 28 U.S.C. § 636(b)(1)(C); Fed. R. Civ. P. 72(b)(2)-(3). Plaintiff
objects to the Court’s authority to impose a pre-filing injunction (Dkt. #136). More specifically,
Plaintiff objects to the recommended sanction on the grounds that the “[djivorce [proceedings are
over” and therefore the court lacks jurisdiction to impose “ANY requirement between Plaintiff and
another Defendant other than [DA] Willis.” Further, Plaintiff contends that such an imposition
would be a constitutional violation (Dkt. #136 at p. 2). Defendant DA Willis responds that the
Court may properly impose such sanctions, and further advocates that, if anything, the Magistrate
Judge’s recommendation was too lenient (Dkt. #144).
The Court has authority to impose sanctions to “deter baseless filings in district court” and
“spare innocent parties and overburdened courts from the filing of frivolous lawsuits.” Cooler &
Gell v. Hartmarx Corp., 469 U.S. 384, 393 (1990). The Court similarly has a duty to impose the
least severe sanctions adequate to deter similar conduct in the future. See Mendoza v. Lynaugh,

2

Case 4:18-cv-00610-ALM-CAN Document 156 Filed 09/27/19 Page 3 of 4 PagelD #: 1641

989 F.2d 191, 196 (5th Cir. 1993); FED. R. CIV. P. 11(c)(1).

Moreover, to Plaintiffs

constitutional concern, ‘“imposition of a Rule 11 sanction is not a judgment on the merits of an
action. Rather, it requires the determination of a collateral issue: whether the [party] has abused
the judicial process, and, if so, what sanction would be appropriate.’ Such an order implicates no
constitutional concern because it ‘does not signify a district court's assessment of the legal merits
of the complaint.’” Willy v. Coastal Corp., 503 U.S. 131, 138 (1992) (citing Cooter & Gell, 496
U.S. at 395-96.) (internal citations omitted).

“[T]here is no constitutional infirmity under

Article III in requiring those practicing before the courts to conduct themselves in compliance with
the applicable procedural rules ... and to allow the courts to impose Rule 11 sanctions in the event
of their failure to do so.” Id. at 139.
Here, the Magistrate Judge determined that monetary sanctions were not appropriate but
that a limited pre-filing injunction was warranted due to Plaintiffs “disregard of the lack of any
legitimate, legal claim against DA Willis” and lack of any good-faith argument in support thereof,
as well as “an emerging pattern and/or course of conduct intended to disrupt or delay the state
court’s consideration of certain matters in the underlying divorce proceeding” (Dkt. #129 at pp. 67). It is apparent from the record(s) that Plaintiff has repeatedly attempted to remove her divorce
proceeding to this Court. Plaintiff has now filed and/or otherwise initiated three separate cases in
federal court related to her divorce in the past year. See Cause Nos. 4:18-cv-610; 4:19-cv-144;
4:19-cv-22. Additionally, Plaintiffs objection evinces her possible misunderstanding of the
sanction being imposed (Dkt. #136 at p. 2). Without leave of court, Plaintiff is prohibited from
further filing in, or removing to, this Court any civil action related to her state court divorce
proceedings. The pre-filing injunction is not specific to any defendant, rather it is specific to this
Court, and to Plaintiffs state court divorce proceeding. Plaintiffs Objection is overruled.

3

Case 4:18-cv-00610-ALM-CAN Document 156 Filed 09/27/19 Page 4 of 4 PagelD #: 1642

CONCLUSION
Having considered Plaintiffs Objection (Dkt. #136), Defendant’s Response (Dkt. #144)
and having conducted a de novo review, the Court adopts the Magistrate Judge’s report (Dkt. #129)
as the findings and conclusions of the Court.
It is, therefore, ORDERED that Defendant District Attorney Greg Willis’s Motion for
Sanctions and to Declare Plaintiff a Vexatious Litigant (Dkt. #56), Supplement (Dkt. #94), and
Second Supplement (Dkt. #120) are GRANTED IN PART AND DENIED IN PART as set forth
herein. Specifically, Plaintiff shall be enjoined from future filings in this District as follows:
Plaintiff is prohibited from filing in or removing to, the Eastern District of Texas
the case Bowling v. Dahlheimer, Case No. 469-51274-2015 in the 469th Judicial
District Court in Collin County (the “Divorce Proceeding”) or any civil action
(including any enforcement proceedings) related to the divorce proceedings
between Plaintiff and Defendant John Dahlheimer, Jr., without leave of court.
Plaintiff shall be required to obtain leave of court from an active Eastern District of
Texas Judge assigned to the division in which the case will be filed, or the Chief
Judge of the Eastern District of Texas. Plaintiff must file a written motion
requesting leave of court and attach to the motion for leave copies of (1) the
proposed complaint; (2) a copy of the Magistrate Judge’s Report and
Recommendation; and (3) this Memo Adopting. This pre-filing injunction is not
intended to and shall not apply to any current or pending matters before the Eastern
District of Texas but shall only be applicable to future cases.
IT IS SO ORDERED.
SIGNED this 27th day of September, 2019.

AMOS L. MAZZANT
& V
UNITED STATES DISTRICT JUDGE

4

APPENDIX B
Appellant Brief
19-40914
Interlocutory appeal(before judgment)
of Order deeming Vexatious Litigant Dkt#156
from the US Eastern District Court of Texas

APPENDIX B

Case: 19-40914

Document: 00515327347

Page: 1

Date Filed: 03/02/2020

No. 19-40914
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
WANDA BOWLING
Plaintiff - Appellant
vs.
GREG WILLIS, in his Official and Individual Capacity,
Defendants - Appellee
Interlocutory Appeal from the United States District Court
Eastern District of Texas, Case No. 4:18-cv-00610
BRIEF OF APPELLANT

Wanda Bowling- Pro Se
APPELLANT
2024 W. 15th St. STE. F-138
Plano, Texas 75075
(770)335-2539
wldahleiiner@gmail.com

OZOZ 60 WH

.cl

NO ORAL ARGUMENT REQUESTED

Page|1

Case: 19-40914

Document: 00515327347

Page: 2

Date Filed: 03/02/2020

CERTIFICATE OF INTERESTED PERSONS
No. 19-40914'

WANDA BOWLING,
Plaintiff - Appellant
v.
GREG WILLIS, in his Official and Individual Capacity,
Defendants - Appellees

The undersigned counsel of record certifies that the following listed persons
and entities listed in the fourth sentence of 5th Cir. Rule 28.2.1. have an interest in
the outcome of this case. These representations are made in order that the Judges of
this Court may evaluate possible disqualification or recusal:

1. US Magistrate Judge Christine Nowak: US Eastern District Court Magistrate
Judge for above case.
2. US Judge Amos Mazzant: US Easter District Court Judge for above case
3. Greg Willis, Defendant
4. Robert Davis, Attorney for Greg Willis

Page 12

Case: 19-40914

Document: 00515327347

Page: 3

Date Filed: 03/02/2020

Wanda Bowling- Pro Se
APPELLANT
2024 W. 15th St. STE. F-138
Plano, Texas 75075
(770)335-2539
wldahleimer@,gmail .com

Page|3

Case: 19-40914

Document: 00515327347

Page: 4

Date Filed: 03/02/2020

TABLE OF CONTENTS
CERTIFICATE OF INTERESTED PERSONS

2

TABLE OF CONTENTS

,4

TABLE OF AUTHORITIES

.5

INTRODUCTION

8

JURISDICTIONAL STATEMENT

8

STATEMENT OF ISSUES FOR REVIEW

10

STATEMENT OF CASE

11

SUMMARY OF ARGUMENT
ARGUMENT
First Issue: Wrongly Declared Vexatious Litigant

24
,27
.27

The “Numerous” Element

,27

The “Merit” Element

31

Second Issue: Wrongly issued a Prefiling Injunction

43

Absent the Vexatious Litigant Justification.

43

Absent of the Threshold of a Prefiling Injunction

,43

Third Issue: Unconstitutional use of a Prefiling Injunction,

49

CONCLUSION AND PRAYER.

51

CERTIFICATE OF COMPLIANCE

,52

CERTIFICATE OF SERVICE

53

Page 14

Case: 19-40914

Document: 00515327347

Page: 5

Date Filed: 03/02/2020

TABLE OF AUTHORITIES
Cases
All Writs Act 28 U.S.C. § 1651(a) (2000)

45,46

Armstrong v. Koury Corp.„ 2000 U.S. App. LEXIS at *2

46

Bernard v. County of Suffolk, 3.56 F.3d 495, 504

36

Chambers v. Nasco 501 U.S. at 44

28

Chambers v. Nasco, Inc., 501 U.S. 32, 43-46 (1991

27

Cohen v. Beneficial Indus. Loan Corp., 337 U.S. 541 (1949)

9

Cromer v. Kraft Foods 390 F.3d at 819

47

Ezell v. Dan River, Inc., 2002 WL at *5

46

Fink v. Gomez, 239 F.3d 989, 991 (9th Cir. 2001)

27

Fink v. Gomez, 239 F.3d at 993-994

28,32

Imbler v. Pachtman, 424 U.S. 409 (1976)

39

Imbler v. Pachtman, 424 U.S. 409, 410 (1976)

39

Moy v. United States, 906 F.2d 467, 470 (9th Cir. 1990)

28

Payman v. Mirza 2005 U.S. Dist. LEXIS at *13

48

Payman v. Mirza, Nos. 2:02cv23, 2:02cv35,2005 U.S. Dist. LEXIS
14262, *8 (W.D. Va. July 18, 2005)................................................

45

Page|5

Case: 19-40914

Document: 00515327347

Page: 6

Date Filed: 03/02/2020

Pep Boys, 2005 U.S. Dist. LEXIS at *23-24

46

Roadway Express, Inc. v. Piper, 447 U.S. 752, 766 (1980)

27

Tinsley v. More Bus. Forms, Inc., No. 93-2086, 1994 U.S. App. LEXIS
14208, *5 (4th Cir. June 9, 1994)..........................................................

46

United States v. Brugnara, 856 F.3d 1198,1209 (9th Cir. 2017)

42

United States v. Dudley, 804 F.3d 506, 520 (1st Cir. 2015)

42

Statutes & Rules
18 Crimes and Criminal Procedures Code

11

18 U.S. Code § 1623. False declarations before grand jury or court

36

28 U.S C. §1331 Federal Question

8

28 U.S. Code § 1292 Interlocutory Decisions

9
*.

28 U.S. Code § 1343 - Civil rights and elective franchise

8

28 U.S. Code § 1356 - Seizures not within admiralty and maritime
jurisdiction...................................................................................

8

28 U.S. Code § 1367 - Supplemental jurisdiction

8

28, U.S.C. § 754 Receivers of Property in Different Districts

8

28, U.S.C. § 959(a) Trustees and Receivers Suable

8

Page | 6

Case: 19-40914

Document: 00515327347

Page: 7

Date Filed: 03/02/2020

42 United States Code 1983 Civil Action for Deprivation of Rights

8

42 United States Code 1985 Conspiracy to Interfere with Civil Rights....

8

Texas Civil Practice & Remedies Code Chapter 11. 054 Criteria for
Finding Plaintiff a Vexatious Litigant.............................................

29

Page|7

Case: 19-40914

Document: 00515327347

Page: 8

Date Filed: 03/02/2020

INTRODUCTION
TO THE HONORABLE COURT OF APPEALS:
COMES NOW, WANDA BOWLING, files this Brief challenging the
Memorandum Adopting Report and Recommendation of the United States
Magistrate Judge, a prefiling injunction(ROA.1519-1522), by the United States
District Court for the Eastern District of Texas, Sherman Division, in Cause No.
4:18-cv-00610, the Honorable Amos Mazzant, United States District Judge,
presiding.

JURISDICTIONAL STATEMENT
Wanda Bowling, Appellant, brought this case to the US Eastern District
Court of Texas under subject matter pursuant to Title 42 United States Code 1983
Civil Action for Deprivation of Rights, Title 42 United States Code 1985
Conspiracy to Interfere with Civil Rights, 28 U.S. Code § 1356 - Seizures not
within admiralty and maritime jurisdiction, 28 U.S. Code § 1343 - Civil rights and
elective franchise, 28 U.S. Code § 1367 - Supplemental jurisdiction and Title 28,
U.S.C. § 754 and 959(a) Trustees and Receivers, and the overarching 28 U.S C.
§1331 Federal Question.(ROA.22)(First Amended Complaint p.2: designated for
ROA/omitted)(Second Amended ROA.1417-1418)

Page | 8

Case: 19-40914

Document: 00515327347

Page: 9

Date Filed: 03/02/2020

The US District Court of Texas abused their discretion on multiple fronts,
but the subject matter for this interlocutory appeal is the wrongful issuance of a
s
sanction requested by Greg Willis, Collin County District Attorney, against
Bowling. This sanction serves as a prefiling injunction. The US District’s
Memorandum Adopting Report and Recommendation of the United States
Magistrate Judge(ROA. 1519-1522), sanction against Bowling, is immediately
appealable under 28 U.S. Code § 1292 Interlocutory Decisions and the CollateralOrder Doctrine see, Cohen v. Beneficial Indus. Loan Corp., 337 U.S. 541 (1949)
*

Bowling appeals this prefiling injunction based on abuse of discretion and
i

it’s lack of constitutional foundation, violating State and Federal Law.
The Memorandum Adopting Report and Recommendation of the United
State Magistrate Judge of sanction, prefiling injunction, (ROA. 1519-1522) was
issued by the US District Court of Texas on 9/27/2019. Bowling filed a Notice of
Appeal 10/28/2019. This case was officially docketed in the US Fifth Circuit
Court of Appeals on 12/3/2019. The court graciously issued an extension for
Bowling’s Brief to be filed timely by 2/13/2020.

Page|9

Case: 19-40914

Document: 00515327347

Page: 10

Date Filed: 03/02/2020

STATEMENT OF ISSUES FOR REVIEW
1. First Issue: The US Federal District Court abused their discretion for issuing
an Order confirming Bowling a “Vexatious Litigant:”.
2. Second Issue: The US Federal District Court, in the same order, abused
their discretion by issuing a sanction against Bowling, a prefiling injunction.
3. Third Issue: The US Federal District is currently abusing their discretion by
declining to rule on previously filed Motions for Reconsideration under Rule
60 and a Second Amended Complaint using this sanction(prefiling
injunction) as a retroactive shield. The District Court declined to respond to
a Motion to Supplement the Record on Appeal.

Page|10

Case: 19-40914

Document: 00515327347

Page: 11

Date Filed: 03/02/2020

STATEMENT OF THE CASE
The main cause offailure in the Federal District Court
The Magistrate Judge Nowak in this court is biased and prejudicial. Judge
Nowak won her seat as a Federal Judge by Appellee’s wife, Jill Willis, who served
on the commission to appoint Nowak to the Federal bench. All of Nowak’s reports
and recommendations have gross errors of fact, omissions of argument.

Federal Case arising from the unconstitutional conduct from State Court
Individuals in their Official and Individual Capacities
This sanction arises from a State Court case in which defendants are charged
with violating several U.S. Constitutional rights. Some of the actions step on both
the Texas Penal Code and the US Title 18 Crimes and Criminal Procedures Code.
The fire of corruption began when Bowling submitted a motion in the state
court after discovering her former spouse had stolen separate real estate property,
forged deeds, forged contracts, used her S Corporation for his business, etc. The
Trial Court Judge McCraw ignored the pleading and allowed the former spouse
(Dahlheimer), the new recipient of his Trust Fund, to litigate frivolously
(vexatiously) cluttering up court time to conceal evidentiary support. The
frivolous litigation caused Bowling to spend an unmanageable amount of money
defending herself against the false claims from Dahlheimer and his vexatious

Page111

Case: 19-40914

Document: 00515327347

Page: 12

Date Filed: 03/02/2020

attorney Paulette Mueller. Eventually the financial stress forced Bowling to
i

proceed Pro Se. Judge McCraw proceeded as though she could abuse her new toy
court any way she wanted. McCraw’s unlawful conduct was first advertised in
Bowling’s Motion to Recuse McCraw. McCraw’s intent to abuse Bowling
increased. In the mist of McCraw’s unconstitutional conduct, the District
Attorney Greg Willis, conspiring with McCraw(see history below), stepped in to
assist in threatening Bowling. Out of nowhere, Willis, the Collin County District
Attorney charged Bowling with an outrageous accusation and tried to incarcerate
her. Timely adjacent to Willis’s malicious litigation would be law enforcement,
who Willis is conservator over, who would call Bowling, invite themselves into
Bowling’s home, and begin threatening her. This happened on multiple occasions.
Bowling sent the Chief of Police, Mr. Rushin, a few still pictures of their criminal
threats. Bowling has the corrupt police conduct on videos cameras. Bowling
furiously defended herself in the divorce only to face a default judgment due to
McCraw having the bench trial without notifying Bowling. McCraw gratifyingly
handed over much of Bowling’s separate property to Dahlheimer(separate property
already established in previous court hearings).
After the divorce was over (July 2016) McCraw forced Bowling out of her
newly purchased home which the downpayment of 100K belonged to Bowling’s
separate property estate.

Page|12

Case: 19-40914

Document: 00515327347

Page: 13

Date Filed: 03/02/2020

Bowling moved out and walked away waving the white flag.

Dahlheimer’s response to the white flas:
Six(6) days after the Divorce was final Defendants, Dahlheimer and Paulette
Mueller, vexatiously came after Bowling again trumping up false charges and tried
to incarcerate her. The new lawsuit against Bowling(penniless now) was
disguised as a MOTION FOR ENFORCEMENT, however, the multiple charges
were false. Dahlheimer, ex-spouse, apparently didn’t like Bowling’s approach of
peace.
Dahlheimer’s attorney, Paulette Mueller, was all too happy to take
Dahlheimer’s newly inherited wealth to frivolously litigate. McCraw, who refused
to answer Bowling’s Request for Findings of Facts and Conclusions of Law, was
so happy to entertain the vexatious litigation and charged heavily to assist Mueller
and Dahlheimer.
Bowling saw no solution, but to escalate to the Appellate Court rather than
face what Willis, McCraw, Dahlheimer and Mueller would do to her next.
Upon a long and approaching end to an Appeal, the Appellate Court
conveniently lost 87 megabytes of evidentiary Trial clerk records ($1100.00
transfer cost) originating from McCraw’s Trial court and closed Bowling’s case
with a baseless opinion. Bowling requested the Appellate Court, Judge Evans and

Page|13

Case: 19-40914

Document: 00515327347

Page: 14

Date Filed: 03/02/2020

the Clerk of the Court, to correct the records and a requested a rehearing.
Requests “DENIED”.
Bowling, again, waved the white flag.

Dahlheimer’s response to Bowlins’s white flag, again
Within approximately three weeks after the last appellate order was
received, Dahlheimer and Mueller came after Bowling once again with a new
lawsuit trumping up more false charges in the Trial court, Judge McCraw, who that
was all too happy to oblige the vexatious litigation. The new lawsuit, again, was
disguised as another MOTION FOR ENFORCEMENT.
Again, Bowling saw no solution to protect herself, but to escalate to the
Federal Court. Along the journey of abuse and concealment was the Bowling’s
former spouse Lester Dahlheimer Jr., his attorney Paulette Mueller, Trial Judge
McCraw, Greg Willis, DA, Appellate Judge Evans, Appellate Clerk of the Court,
and two receivers, Herres and Penfold, who stole equity, insurance proceeds, and
damaged Bowling’s property.
Bowling has always been in a defensive disposition. As time moved
forward in the journey, more abuse occurred, more criminal actions occurred, and
once exposed unlawful concealment ensued.

Page114

Case: 19-40914

Document: 00515327347

Page: 15

Date Filed: 03/02/2020

A HISTORY: of Gres Willis and McCraw collusion
Greg Willis, Defendant, was nominated to the Collin County Court of Law
in 2006 and subsequently ran unopposed to keep his Judgeship until 2009.
Approximately, October 2009 Willis was accused of corruption by the current
District Attorney’s office on many fronts including taking bribes in his official
position as a Judge in the Collin County Courthouse. The investigation ensued and
several prosecutors were called to testify before the Grand Jury including Piper
McCraw. At the time McCraw worked for the current District Attorney’s office of
the time. It was Piper McCraw’s testimony at the Grand Jury that betrayed the
current District Attorney’s investigation against Willis. McCraw’s testimony
threw the D.A.’s entire case under the bus. Piper McCraw was immediately
suspended and eventually fired from the District Attorney’s office “for
insubordination”(2011). Greg Willis went on to run for the District Attorney’s
office of Collin County(2011) and Piper McCraw, same year(2011), endeavored to
to be a Judge in the Collin County 380th District Court(2011 campaigning for the
2012 term: according to the Texas Ethics Commission financial report). She did
not succeed.
Interestingly, Richard Schell who currently serves as a Federal Judge in the
U.S. Eastern District of Texas, administered Willis' oath to office.

Page|15

Case: 19-40914

Document: 00515327347

Page: 16

Date Filed: 03/02/2020

In 2015, while Willis is serving as District Attorney, Piper McCraw was
nominated by an unknown source and subsequently appointed by Greg Abbott as a
Republican Judge in the Collin County 469th District Court.

AT THE BEGINNING: Piper McCraw’s and Gres Willis’s abuse of discretion
At the beginning, Bowling filed for divorce in the 219th District of Collin
County 3/2015. The case was stagnant due to the unfortunate illness of the current
presiding Judge. Bowling’s case was transferred in September 2015 to the newly
appointed Judge McCraw of the 469th District Court of Collin County. Within two
months, two hearings, McCraw demonstrated an affinity for abuse of discretion in
lieu of justice which precipitated Bowling to file a Motion to Recuse Judge
McCraw November 2015. The recusal pleading is only 19 pages, but the attached
evidence includes two transcripts with a large amount of evidence and is A MUST
READ if this court has access to Odyssey. This document demonstrates a
disgusting abuse of discretion. Pay special attention to pages 42-43 where while
Bowling was testifying to the evidence on the stand, defendant Mueller took
Bowling’s pile of evidence from her and decided to “help admit” the evidence
while Judge McCraw actively shushed Bowling from calling out the descriptions
of each item that should have been admitted(“just the exhibit number

Page|16

Case: 19-40914

Document: 00515327347

Page: 17

Date Filed: 03/02/2020

please”). This strategically gave Mueller and McCraw a way to omit whatever
they selected as evidence. Evidence that should have made it into evidence did
not. Some items admitted were items unlawfully admitted and not known by the
Bowling. Mueller and McCraw conspired to tamper with Bowling’s evidence in
court. Inclusive of the evidence submitted in the courtroom was proof of
Dahlheimer stalking Bowling in church for 7 months violating a Protection Order
over and over, breaking into her home, arrest(s) and continued threats toward
Bowling. Enough was submitted to make this Motion for Recusal of Judge
McCraw A MUST READ.
Bowling appealed to Greg Willis for the issues and asked for help.

wrrJJS’S RESPONSE TO BOWLINGS PLEA FOR HELP:
District Attorney Greg Willis's false accusation toward Bowlins intending to
wrongly incarcerate/vunish herdnstead ofprosecuting the above offenses)
Upon the impending recusal hearing Bowling received a strange
request(ROA.656) in the mail from Greg Willis’s District Attorney’s office to
appear in court on December 1,2015. The notice didn’t indicate why Bowling
must appear. The notice simply identified a gun as the subject matter(ROA.656).
Bowling arrived to court that day with her brother only to experience the
below:

Page|17

Case: 19-40914

1.

Document: 00515327347

Page: 18

Date Filed: 03/02/2020

Bowling was accused by Greg Willis District Attorney of stealing Lester

Dahlheimer Jr.’s gun. (ROA.743) This is false. The gun is factually in Bowling’s
\

name as owner and was tied to her CHL in Georgia. NOTE: Reciprocity for CHL
exists with Texas.
2.

The District Attorney lied to the court and claimed Bowling was already

divorced from spouse and there was a divorce decree. (ROA.742) This is false.
Bowling and Defendant were not divorced for another 7 months(July of 2016). A
decree didn’t exist at that time.
3.

The District Attorney lied to the court that the Divorce Decree gave Lester

Dahlheimer Jr., (of historical violence and recently arrested), ownership of subject
matter gun. (ROA.742) This is false. A decree or any other document did not exist
giving Lester John Dahlheimer Jr. any award of such gun.
4.

The District Attorney insisted on incarceration.

Probable cause did not exist. Willis lied about the probable cause stating
there was a Divorce and Dahlheimer was awarded the gun.
Consequently, it appeared the presiding Judge and what looks like a
constable(possibly Joe Wright), who were in attendance, didn’t trust the accusation
by the DA and immediately jumped to Bowling’s defense. These two court
officials gave Bowling time to prove Bowling owned the firearm, no such Divorce

Page 118
i

Case: 19-40914

Document: 00515327347

Page: 19

Date Filed: 03/02/2020

existed, and no such “award” of the gun existed. Bowling was found to be
innocent of the entire set of charges and released.
More disturbing about this incident is the “notice” (ROA.656) had no
indication there were criminal charges against Bowling which deceivingly deterred
Bowling from retaining counsel to attend the requested “appearance” further
weakening her right to protect herself. Bowling had never seen the record Request
for Property Hearing ROA.742 or Docket Case file ROA.743 until this lawsuit
ensued in the Federal Court.
Bowling spent the next few months writing Greg Willis and demanding an
answer:
1. What STANDING did the Willis have to surprise her with a false
accusation of a criminal offense and why would he manufacture false
evidence to portray “probable cause”. Why did he try to incarcerate her?
2. As to why Willis refused to prosecute Dahlheimer who lavishly violated the
protection order against him, was arrested, and had Dahlheimer’s confession
in evidence of his history of violence toward Bowling.
3. What was the basis for immediately expunging Mr. Dahlheimer’s justified
police arrest for violating the Protection Order?
4. Why didn’t Willis intervene in the criminal offenses of Dahlheimer and his
attorney, Defendant Paulette Mueller of forgery, fraud, and theft.

Page|19

Case: 19-40914

Document: 00515327347

Page: 20

Date Filed: 03/02/2020

Willis’s “people” finally responded to Bowling and invited Bowling into the
DA’s office to hear details of her issued with Greg Willis. Bowling left Greg
Willis’ office with the promise that they, Willis’s “people”, would get back to
Bowling with explanations to the above issues. Bowling never heard back from
Willis’s office. Willis has never explained any of the above events.

McCraw’s continuance to abuse her discretion and adjudicate outside her
jurisdiction with the assistance of Willis
At first launch into Bowling’s Appeal the Appellate Court ordered the Trial
Court to have a hearing for a STAY PENDING APPEAL filed by Bowling. It
was GRANTED. The STAY PENDING APPEAL stayed any enforcements on the
Divorce Decree(among other orders). There was a Rule 11 Agreement in place
which gave Bowling exclusive control of her residence/property. With this
structure of legal grounds Bowling moved back into her home as it had been
vacant for 10 months and was declining due to the lack of care.

McCraw’s response to Bowling moving back into her property during the Appeal
The Trial Court, McCraw, violated its own STAY PENDING APPEAL and
adjudicate outside of its jurisdiction during the appeal. McCraw threatened

Page| 20

Case: 19-40914

Document: 00515327347

Page: 21

Date Filed: 03/02/2020

incarceration, sanctions, and issued unlawful orders as during the Appeal.
McCraw re-ordered up the divorce decree and aspired to unlawfully seize more of
Bowling’s established separate property. Someone(?) fostered local police(who
legally have nothing to do with civil issues) to harass Bowling. Police on several
occasions either just showed up at Bowling’s door or called her threatening her to
leave her residence immediately or be incarcerated even though ldgal counsel
confirmed Bowling could possess her own property under the Rule 11 agreement
in place.
Bowling appealed again to Willis since he is conservator over law
enforcement only to receive silence, not a single response. Each new unlawful
order McCraw issued was a direct violation of the Stay Pending Appeal. McCraw
appeared to act as though she was untouchable as she continued to adjudicate
outsider her jurisdiction and violate Bowling’s federal constitutional rights. Willis
appeared to support the unlawful efforts.

What happened in the higher courts of Texas?
After an Appellate opinion was issued by Judge David Evans of the Fifth
District Court of Appeals in Texas it was discovered that the Appellate Court lost,
deleted, absconded, checked out, or misfiled(or tampered with) Bowlines entire
clerk record. This record was 87 megabytes exposing the corrupt journey in Judge

Page121

Case: 19-40914

Document: 00515327347

Page: 22

Date Filed: 03/02/2020

McCraw’s Trial Court in collusion with‘the Dahlheimers, Mueller, and Willis
including the extreme adjudication outside of the Trial Court’s jurisdiction.
Bowling motioned the Fifth District Court of Appeals to correct the record(which
had previously cost Bowling $1,100.00 to transfer from the Trial court), but Judge
David Evans of the Fifth District Court of Appeals DENIED the request. The
convenient loss of records concealed the collusion, unlawful conduct, and
corruption of the Defendants as well as thwarted any move upward to the Texas
Supreme Court who simply denied hearing Bowling’s Application for
Petition(6/l 5/2018).

NOTE: Judge McCraw was appointed as a “Republican” Judge by Greg Abbott.
Judge Evans was appointed as a “Republican” Judge by Greg Abbott. Judge Evans
loses Bowling’s records(87 megabytes) which protects McCraw. Judge Evans
subsequently was voted out of his judge chair by an opposing Democrat
challenger. Later Greg Abbott rewards Judge Evans by re-appointing Evans as a
“Republican” Judge again. Three Texas Supreme Court Justices were appointed
by Greg Abbott as “Republican” judges who served an order of “DENIED” to
deny correction of the Bowlings trial clerk records(87 megabytes lost). Judge
Christine Nowak, Magistrate Judge of this Federal District court which has erred,
omitted facts, misarticulated facts is conveniently married to Judge Tom Nowak,

Page | 22

Case: 19-40914

Document: 00515327347

Page: 23

Date Filed: 03/02/2020

Republican” Judge appointed by of Greg Abbott of the same court jurisdiction and
court as Judge McCraw. Christine Nowak and Piper McCraw serve together on a
10 panel member advisory Committee of the Collin County Women’s Lawyers
Association. There is one Master Puppeteer, Greg Abbott in the Executive Branch,
pulling the strings to hundreds of “Republican” Judges who play on the same team
rather than act as gatekeepers at different levels of justice. This tyrannical
architecture clearly blurs the lines of “Checks and Balances”.
It must be called out the Greg Willis’s wife, Jill Willis, was on the
commission who selected Christine Nowak for her federal judge appointment in
2015. Judge Nowak served up the prefiling injunction, subject matter for this
court’s review, in behalf of Greg Willis. Greg Willis motioned for this sanction.

Page | 23

Case: 19-40914

Document: 00515327347

Page: 24

Date Filed: 03/02/2020

SUMMARY OF ARGUMENT
First Issue:
1. The Federal District Court abused their discretion by wrongly declaring
Bowling as a “Vexatious Litigant”
t

a. The Numerous element: Numerous lawsuits must exist. There is only
one lawsuit against Willis by Bowling and it is in the US Federal
District Eastern Court of Texas 4:18-cv-00610(same case appealed
here). There has never been a history of any other lawsuits between
Bowling and Appellee, Willis. Bowling’s one lawsuit does not reach
the threshold of either Texas Vexatious Litigant Statutes nor the US
Federal Vexatious Litigant caselaw.
b. The Merit element: The lawsuit must have merit.
i. Bowling has merit to file for a remedy in this case.
ii. Willis’s conduct of perjury, producing false evidence, and
impermissible conduct in both the State and Federal courts lend
to the merits of Bowling’s case.
Bowling’s case has not demonstrated bad faith, recklessness, and harassment as
required by State and Federal Vexatious Litigant statutes.

Page| 24

Case: 19-40914

Document: 00515327347

Page: 25

Date Filed: 03/02/2020

2. Second Issue:
The Federal District Court abused their discretion by wrongly issuing a
prefiling injunction.
a. If the Fifth Circuit Court of Appeals finds the Bowling does not fall
under the criteria of a Vexatious litigant, then this court must find that
the issuance of a prefiling injunction is an abuse of discretion,
b. Bowling’s one lawsuit does not rise to the threshold of Federal
statutes of a prefiling injunction. A prefiling injunction violates both
the Texas Statutes and the United States Constitution? The prefiling
injunction infringes on Bowlings right to remedy by placing an
obstruction of Bowling’s access to the Federal District Court.

3. Third Issue:
The United States Eastern District Federal Court is abusing their discretion
by using this appealed prefiling injunction issued 9/27/2019 to decline ruling on
two Motions for Reconsiderations under Rule 60 filed on 9/9/2019 and Second
amended Complaint(9/16/2019) for which both were filed before this prefiling
injunction was issued. One Motion for Reconsideration Rule 60 is based on the
court’s(Nowak) omissions/errs and fraud on the court(ROA. 1314-1344). This
motion is in essence a request by Bowling to the court to produce evidentiary

Page| 25

Case: 19-40914

Document: 00515327347

Page: 26

Date Filed: 03/02/2020

findings of fact and conclusions of law. The other Motion for Reconsideration
Rule 60 was based on the baseless denial of Bowling’s First Amended
Complaint(document designated for ROA, but was omitted by the District Court).
Regarding the Second Amended Complaint(ROA.1417-1468) it was the court who
instructed Bowling to amend her complaint(ROA. 1543). Bowling had already
filed it, yet the court refhses to accept it and move forward. The federal District
court is refusing to answer any of the previously filed motions using the prefiling
injunction as a retroactive shield to avoid accountability.
The Federal District Court needs to be compelled to answer Bowling’s
Motions for Rule 60 and explain why Bowling’s arguments omitted have no basis
and why they did not respond to Bowling’s Motion to Supplement the Record on
Appeal.

Page|26

Case: 19-40914

Document: 00515327347

Page: 27

Date Filed: 03/02/2020

ARGUMENT
FIRST ISSUE
The US Federal District Court abuse their discretion for issuing an Order
confirming Bowling a Vexatious Litigant.

Argument for Issue 1(a) The Numerous Element: Only one lawsuit exists
between the Bowling and Willis. (Same case for this Appeal)
In order to fulfill the Federal Statutes to declare a litigant “vexatious” the
criteria according to Federal law is the litigant must have “numerous” lawsuits
against the specific litigant. Bowling only has one lawsuit which is the subject
matter for this Appeal. Further, this sanction declaring a Vexatious Litigant is in
violation of Texas law as well and is in violation of Bowling’s right in her
sovereign state.
Parameters declaring Bowline a Vexatious Litisant do not exist in this case
Leeal Standard: The Numerous Element
The court has inherent power to sanction parties or their attorneys for
improper conduct. Chambers v. Nasco, Inc., 501 U.S. 32, 43-46 (1991); Roadway
Express, Inc. v. Piper, 447 U.S. 752, 766 (1980); Fink v. Gomez, 239 F.3d 989,
991 (9th Cir. 2001). However, in order to sanction a litigant under the court"s
inherent powers, the court must make a specific finding of “bad faith or conduct

Page | 27

Case: 19-40914

Document: 00515327347

Page: 28

Date Filed: 03/02/2020

tantamount to bad faith.” Fink, 239 F.3d at 994. Although mere recklessness is
insufficient to support sanctions under the court’s inherent powers, “recklessness
when combined with an additional factor such as frivolousness, harassment, or an
improper purpose” is sufficient. Id. at 993-94. “[inherent powers must be
exercised with restraint and discretion.” Chambers, 501 U.S. at 44. Under federal
law, litigiousness alone is insufficient to support a finding of vexatiousness. See
Moy v. United States, 906 F.2d 467, 470 (9th Cir. 1990) (the plaintiffs claims must
not only be numerous, but also be patently without merit). The focus is on the
number of suits that were frivolous or harassing in nature rather than on the
number of suits that were simply adversely decided.
Discussion: Does Bowling have a litigious background of numerous
lawsuits against Willis?
Bowling has only one suit against Willis. Therefore, Bowlings actions do
not rise to the level of the Federal Statutes standard of review to declare Bowling
of being a “Vexatious Litigant”.
On another note, it is unusual that a Federal court should find their “one”
and only case by a party to be vexatious if there hasn’t been any such declaration
of “vexatiousness” at the State level. There is a precedence to have a history of
numerous and vexatious behavior prior to reaching a Federal court, yet it does not
exist. Bowling’s actions in the State of Texas do not remotely meet the criteria for

Page| 28

Case: 19-40914

Document: 00515327347

Page: 29

Date Filed: 03/02/2020

a Vexatious Litigant by Texas Civil Practice & Remedies Code Chapter 11. 054
Criteria for Finding Plaintiff a Vexatious Litigant. Declaring Bowling a vexatious
litigant is in violation of Texas law.
Further, the current Federal District Court’s sanction/prefiling injunction
mentions very little about Bowling’s actions in the Federal court. This “Federal”
sanction against Bowling incessantly articulates events in one State Court Case
that was escalated to the Texas Appellate Courts. The Federal Courts invoking
“inherent powers” of authority to pass judgment of vexatious litigation in one State
case seems far reaching and an abuse of such powers.
It must be noted that nothing in the State court case has any relativity to
Greg Willis(the Appellee requesting this sanction).
The District courts did not address criteria requirements for vexatious
litigation, however, Judge Nowak attempted to illustrate the “numerous” element
by trying to pass off the District Courts disregard of Bowling’s two attempts to
enjoin to this case one particular Defendant(Judge John Roach) as “numerous
lawsuits”.
Subject to this sanction the Magistrate Judge writes:
“It is apparentfrom the record(s) that Plaintiff has repeatedly attempted to remove
her divorce proceeding to this Court. Plaintiffhas now filed and/or otherwise
initiated three separate cases in federal court related to her divorce in the past
year".

Page 129

Case: 19-40914

Document: 00515327347

Page: 30

Date Filed: 03/02/2020

This is misstated to pass off the “numerous” element nor is any of Bowling’s
attempts to enjoin Judge Roach to this one lawsuit have anything to do with
“Divorce”. The Texas state'divorce case was over in 2016.
There were two attempts made by Bowling to enjoin this particular party,
Judge Roach, to this one federal case.
EVENTS: The Texas state case was closed. Defendants Dahlheimer/Mueller
reopened the case with a new frivolous lawsuit against Bowling(as they did
multiple times) disguised as a Motion for Enforcement. Judge McCraw insisted
on continuing to reign over the new case even though she was currently a
Defendant in Bowlings Federal case(this one). In the Federal Court Bowling
requested an injunction against McCraw’s continued efforts to preside in the state
court. McCraw finally recused herself from the new state lawsuit case. Judge
Roach took the new state case, but simply enjoined himself in the corrupt behavior
of covering up for his colleague McCraw. Judge Roach happily stepped outside
his jurisdiction to punish Bowling.
Bowling requested this new state case be removed to the Federal District
Court(4:19-CV-00022) and enjoined it(page 1 of Complaint) to the current case as
the subject matter was the same. The Federal District court remanded the case
back to the state court. The Magistrates unjustly claimed Bowling didn’t state
Federal Questions in her Complaint.

Page | 30

Case: 19-40914

Document: 00515327347

Page: 31

Date Filed: 03/02/2020

With the failure to remove the state case of Judge Roach’s violations,
Bowling simply filed a similar lawsuit against Judge Roach for the same exact
behavior of unchecked violations as in the first case(4:19-CV-00144). Again,
Bowling requested to consolidate this case(page 1 of Complaint) to the one current
Federal District case due to the group relativity and subject matter. This would be
the second time Bowling tried to enjoin Judge Roach to the current case. The
Federal District court simply ignored the Bowlings repeated requests to enjoin the
new party, Judge Roach. So, now there are two cases in the Federal District court
of the same subject matter, same court, same jurisdiction, same players.
It is a waste of Federal District court resources NOT to enjoin this particular
party, Judge Roach, to this case.
This district court is trying to prove a false perception of “numerous
litigation” on the part of Bowling.

Argument for Issue l(b)(i) : Does Bowling’s case have merit?
Lesal Standard: The Merit Element
... in order to sanction a litigant under the court’s inherent powers, the court
must make a specific finding of “bad faith or conduct tantamount to bad faith.”
Fink, 239 F.3d at 994. Although mere recklessness is insufficient to support

Page|31

Case: 19-40914

Document: 00515327347

Page: 32

Date Filed: 03/02/2020

sanctions under the court’s inherent powers, “recklessness when combined with an
additional factor such as frivolousness, harassment, or an improper purpose” is
sufficient. Id. at 993-94.
Discussion: 1(b)(1): Did Bowling have merit to seek remedy for below or
was this case frivolous and harassing?
In the complaint Bowling charged Willis for the following federal
violations:
Violation of due process
Conspiracy to interfere with Civil Rights
Failure to Intervene,
- Malicious prosecution
And while not formally charged Willis should be charged with Fraudulent
Concealment of his actions to a Federal District Court by way of peijury.
There is no question Willis lied about having probable cause in a state court
to charge and incarcerate Bowling.
a) lied to the state court about Bowling being divorced.(ROA.742).
b) lied to the state court about gun owned or was awarded to
i

Dahlheimer.(ROA.742)

I

c) Accused Sergeant Vance of requesting this hearing and writing such
document, yet it appears to lack his signature.(ROA.742). This might be

Page132

Case: 19-40914

Document: 00515327347

Page: 33

Date Filed: 03/02/2020

because Sergeant Vance knew of the pending divorce, confirmed the gun
ownership, confirmed there was a Protection Order against Dahlheimer,
and knew why Bowling kept the gun in her purse close by.
d) lied to the state court by claiming Bowling stole the gun(ROA.743)
♦

where it states under Case Type: “Possession of Stolen Property Hearing
- Article 47 of the Texas Code of Criminal Procedure).
There is no question he interfered into Bowling’s life(rights) aggressively,
with surprise (ROA.656) by luring her unsuspectingly into court(ROA.656) and
without provocation. Then surprising Bowling by the act of trying to incarcerate
Bowling. No probable cause existed.
Willis has never explained his actions. Bowling civilly asked Greg Willis to
explain with no response. This leads to the conclusion of collusion with the newly
appointed McCraw who was facing recusal and the Appellate court.
There is no question that Willis violated due process in the mist of his
charging Bowling with a false charge to incarcerate her without probable cause.
To achieve falsely imprisoning Bowling, Willis made false claims to the court.
There is no question Willis possessed the evidentiary support that
Dahlheimer had a history of violence, stalking, and threatening Bowling, yet Willis
joined McCraw’s abuse of discretion and declined to protect Bowling when
requested. (Evidence of Dahlheimer’s violence/stalking is attached to the Motion

Page| 33

Case: 19-40914

Document: 00515327347

Page: 34

Date Filed: 03/02/2020

to Recuse Judge McCraw of the 469th Court of Collin County, 11/2015, A MUST
READ). All evidence of violent history, arrests, confessions, and events was
submitted in a hearing in front of McCraw and submitted separately to Willis,
Collin County District Attorney.
Bowling requested for Willis to explain his actions in state court, the
ongoing police harassment, the ongoing failure to assist with criminal
breakins/threats/vandalism, and McCraw’s criminal participation in all mentioned.
See example threat capture for Bowling’s attempt to obtain a TRO in the
Federal Court: Denied.
- See ROA. 153: picture of Dahlheimer, Herres(receiver), locksmith
parked in front of Bowling’s house threatening to barge in. There is no
Order in place to remove Bowling or implementation order for
Bowling’s exit.
- See ROA. 154: Bowling called police. Same individuals(police) showed
up that previously threatened Bowling 2016, 2017, and 2018.
See ROA. 155: Police invite themselves in(they saw Bowling’s front
door camera). Bowling telling them leave immediately.
See ROA. 156: Police steps forward toward Bowling in an attempt to
bully her. Police do not know of the camera in the front living room.

Page | 34

Case: 19-40914

Document: 00515327347

Page: 35

Date Filed: 03/02/2020

- See ROA. 157: All leave because Bowling stood her ground. They have
no rights, and no probable cause, however, the threat was real.
Willis’s participation was ongoing and without explanation. Bowling had no
choice, but to seek remedy in a Federal Court to stop Willis’s threats toward
Bowling. This is the only case between Bowling and Willis in any court.
Bowling’s actions have not demonstrated “bad faith, recklessness, and
harassment” as required by State and Federal Vexatious Litigant statutes.
Willis is guilty of the stated charges regardless of the Federal Court’s error
of dismissing Bowling’s charges against him.

Argument for Issue l(b)(ii): Does Willis’s unlawful conduct lend to the merits
of Bowling’s case?
If Willis perjured himself in the State court, submitted false evidence in the
State Court, added more perjury in the Federal Court to cover up his state actions,
added more false evidence in the Federal Court to cover up his actions in the State
court, filed collectively approximately 11 pleadings and letters to Bowling
countersuing Bowling with sanctions, then it would seem that Willis has
demonstrated corruption which lend to the merits of the Bowling’s case in the
Federal Court.

Page|35

Case: 19-40914

Document: 00515327347

Page: 36

Date Filed: 03/02/2020

Additionally, Willis’s conduct would be deemed “impermissible conduct”
which would nullify his immunity.
Legal Standard
The caselaw(one of many) which articulate Willis’s conduct is not afford
immunity:
Even if a prosecutor is performing an advocative function, he will
nonetheless be denied absolute immunity if he intertwines the exercise of his
advocation function with impermissible conduct; or if he acts in excess of
his statutorily conferred jurisdiction. Thus, absolute immunity will not shield
him if he “has intertwined his exercise of prosecutorial discretion with other,
unauthorized conduct.” Bernard v. County of Suffolk, 356 F.3d 495, 504.
The standard to determine if false declarations and submitting false evidence
to a court rise to the level of impermissible conduct is found in:
18 U.S. Code § 1623. False declarations before grand jury or court
(a) Whoever under oath (or in any declaration, certificate,
verification, or statement under penalty of pexjuiy as permitted under section
1746 of title 28, United States Code) in any proceeding before or ancillary to
any court or grand jury of the United States knowingly makes any false
material declaration or makes or uses any other information, including any
book, paper, document, record, recording, or other material, knowing the
same to contain any false material declaration, shall be fined under this title
or imprisoned not more than five years, or both.
“In most cases, the courts abbreviate their description of the elements and
state in one form or another that to prove perjury the government must establish
that “the defendant (1) knowingly made a (2) false (3) material declaration (4)

Page|36

Case: 19-40914

Document: 00515327347

Page:,37

Date Filed: 03/02/2020

under oath (5) in a proceeding before or ancillary to any court or grand jury of the
United States.”

Discussion:
Do the below items rise to the level of impermissible conduct and lend to the
merits of Bowling’s case?
Items of Willis’s false declaration
1. In the State court (ROA.742) Willis produces a document insinuating
Sergeant Vance issued the Request for Hearing, yet Vance’s signature is
absent. Vance was not visibly present at that hearing. It was presumably Joe
Wright, Constable, that protected Bowling. This document has never been
seen by Bowling nor does it state on the record(ROA.743) the entry
“Request for a Hearing” was issued by Sergeant Vance. Sergeant Vance and
Bowling had met prior to this hearing and at that time Vance previously
verified Bowling’s Protection Order against Dahlheimer(violence/stalking),
verified the “pending” divorce, and verified Bowling’s ownership(and CHL)
of this particular gun. It would seem highly unlikely that Sergeant Vance
would request a hearing regarding an item or probable cause that he already
has verifiable information as to the contrary. It is highly unlikely that
Sergeant Vance would support advancing a gun to Dahlheimer who had a

Page|37

Case: 19-40914

Document: 00515327347

Page: 38

Date Filed: 03/02/2020

proven history of violence and stalking. Willis’s production of documents
was fraud on the court.
2. In the State court (ROA.742) falsely insinuates there is a Divorce Decree,
that the gun belongs to Dahlheimer(or was awarded to Dahlheimer)thus this
is perjury to promote probable cause. All of claims in this document are
easy to validate(invalidate) before an individual is charged with a crime.
3. In the State court (ROA.743) Willis already previously charged Bowling
with stealing a gun from Dahlheimer without notifying her. Bowling would
have hired an attorney had she known of the charges. An Attorney would
have identified(witnessed) Willis’s false probable cause. Willis endeavored
to falsely imprison Bowling and the motive has not been explained to
Bowling regardless of her repetitive requests for an explanation.

NOTE: Bowling has not audited all of Willis’s documents in the Federal
District Court as he filed many to sanction Bowling. There were too many
to scrutinize. Below are some material items identified as “impermissible
conduct”.
4. In the Federal District court Willis knowingly misrepresents law by inserting
his own words into a popular caselaw recitation of legal authority. Willis’s
insertion of his own words insinuates his investigatory role(no probable

Page[ 38

Case: 19-40914

Document: 00515327347

Page: 39

Date Filed: 03/02/2020

cause) is covered by immunity. In Willis’s Motion to Dismiss(ROA.189) he
writes:
“Prosecutorial Immunity Bars Plaintiffs claims against Collin County
District Attorney Willis in his individual capacity
The doctrine ofabsolute Prosecutorial Immunity, as setforth by the United
States Supreme Court in Imbler v. Pachtman, 424 U.S. 409 (1976), provides
that a state prosecutor who acts within the scope ofhis duties in initiating,
investigating and pursuing a criminal prosecution and in presenting the state's
case is absolutely immune from a civil suitfor damages for alleged deprivations
ofthe defendant's constitutional rights under 42 U.S.C. §1983.”
The law actually reads:
“When a prosecutor performs "advocative" conduct, that is, he "act[ s] within
the scope of his duties in initiating and pursuing a criminal prosecution,"
Imbler v. Pachtman, 424 US. 409, 410 (1976), he is absolutely immune from
suit.”
There is no such word as “investigating” in this statement of law, Imbler
v. Pachtman. It is no mistake that Willis deceitfully inserted his own
wording “investigating” fully knowing that he had no probable cause to
prosecute Bowling and incarcerate her. An investigatory role has no
immunity afforded.
Bowling also noted to the Federal District court that “Even if a
prosecutor is performing an advocative fimction(advocate of initiating
prosecution), he will nonetheless be denied absolute immunity if he

Page|39

Case: 19-40914

Document: 00515327347

Page: 40

Date Filed: 03/02/2020

intertwines the exercise of his advocation function with “impermissible
conduct”.
Bowling’s multitude of valid arguments of the law regarding Willis’s
lack of different kinds of immunity are articulated in (ROA.41-42,
ROA.650-654, ROA.705, ROA.l 116-1120, ROA.1461-1463 and Bowling’s
First Amended Complaint designated for ROA: omitted).
5. In the Federal District court Willis maliciously falsified facts of Bowling in
a pleading to mislead the tribunal into believing his prosecution of Bowling
had merit.
Willis claimed that when he charged Bowling with stealing a gun that the
gun in question “was eventually returned to the lawful owner” (ROA.737)
falsely insinuating to the Federal District court that Bowling had indeed
stolen the gun(which is blatantly false) and insinuated the gun belonged to
someone other than Bowling(which is false). This false statement misleads
the Federal District court to believing Bowling was found guilty of stealing a
gun. This is a malicious falsification. Willis deceived the District court into
believing he had merit to prosecute Bowling. This shows intention to thwart
the judicial machinery.
6. WILLIS demonstrated conduct of malicious litigation

Page | 40

Case: 19-40914

Document: 00515327347

Page: 41

Date Filed: 03/02/2020

On top of Willis’s threats to wrongly incarcerate Bowling, Willis
fostered judicial(McCraw) and law enforcement(police) corruption,
committed fraud on the court, and threatened to sanction Bowling in
documents (ROA.623-633, ROA.635, ROA.647, ROA.640, ROA.735,
ROA.747-748, ROA.996-997, ROA.l 184-1191, ROA. 1471-1474).
Bowling has been on the defense from Willis’s aggression on many
fronts. Bowling’s actions do not mimic “Vexatious Litigation”. Willis’s
malicious litigation is “impermissible conduct” which nullifies immunity
and should lend to the merits of Bowling’s case.
7. Willis falsely claimed innocence in a Federal Court.
Willis is die only litigant of eight who claims he is innocent of depriving
Bowlings constitutional rights(ROA. 187-188). The other litigants did not
deny their guilt, but simply invoked different immunity strategies without
stepping into the real issues of depriving Bowling’s rights. Willis is guilty,
but falsely claimed his innocence in a Federal Court.
With the above identified it appears the elements of peijury seem to
have been met: declaration, certificate, verification or statement AND two
or more declarations inconsistent with the truth AND knowing “mens rea”:
intent to get away with his criminal actions. United States v. Brugnara, 856
F.3d 1198, 1209 (9th Cir. 2017); see also United States v. Dudley, 804 F.3d

Page 141

Case: 19-40914

Document: 00515327347

Page: 42

Date Filed: 03/02/2020

• 506, 520 (1st Cir. 2015) (“A statement under oath constitutes perjury if is [1]
false, [2] known to be so and [3] material to the proceeding.”);

Bowling did not accuse Willis with Perjury to the State or Federal District
court, but the above facts lend heavily to the frierits of Bowlings case and
demonstrates that Willis is not innocent of the charges articulated in Bowling’s
Complaint.

Page 142

Case: 19-40914

Document: 00515327347

Page: 43

Date Filed: 03/02/2020

SECOND ISSUE

If this court finds Bowlins does not meet the threshold of Vexatious Litigant
If this court finds that Bowling’s argument of the First Issue is valid this
court must find that a prefiling injunction against Bowling is an abuse of
discretion. No restatement of Issue One required.
Parameters ofa prefiling injunction
The verbiage below is from the appealed Memorandum Adopting Report
and Recommendation of the United State Magistrate Judge for
sanctions(ROA. 1519-1522):
(ROA. 1521-1522) Without leave ofcourt, Plaintiffis prohibitedfrom further
filing in, or removing to, this Court any civil action related to her state court
divorce proceedings. The pre-filing injunction is not specific to any defendant,
rather it is specific to this Court, and to Plaintiffs state court divorce proceeding.
Plaintiffs Objection is overruled.
Specifically, Plaintiffshall be enjoinedfrom futurefilings in this District as
follows:
Plaintiff is prohibitedfrom filing in or removing to, the Eastern District of Texas
the case Bowling v. Dahlheimer, Case No. 469-51274-2015 in the 469th Judicial
District Court in Collin County (the “Divorce Proceeding”) or any civil action

Page 143

Case: 19-40914

Document: 00515327347

Page: 44

Date Filed: 03/02/2020

(including any enforcement proceedings) related to the divorce proceedings
between Plaintiffand Defendant John Dahlheimer, Jr., without leave of court.
Plaintiffshall be required to obtain leave of courtfrom an active Eastern District
of Texas Judge assigned to the division in which the case will be filed, or the Chief
Judge ofthe Eastern District of Texas. Plaintiffmustfile a written motion
requesting leave of court and attach to the motion for leave copies of (1) the
proposed complaint; (2) a copy of the Magistrate Judge’s Report and
Recommendation; and (3) this Memo Adopting. This pre-filing injunction is not
intended to and shall not apply to any current or pending matters before the
Eastern District of Texas but shall only be applicable to future cases.

Judge Nowak’s misarticulation of the subject matter
First, it must be established that this case has never been about the “Divorce
proceedings” as the Magistrate Judge intentionally misarticulates. Greg Willis is
being sued for Violation of Due Process, Conspiracy to Interfere with Civil Rights,
Failure to Intervene, and Malicious Prosecution. Other Defendants in this case are
being sued for the same and Unlawful Seizure, Tampering with Governmental
Records, and Fraudulent Concealment. There is nothing in this subject matter
relating to divorce and nothing has been “re-litigated” from those previous
proceedings.

Page|44

Case: 19-40914

Document: 00515327347

Page: 45

Date Filed: 03/02/2020

This subject matter is proper for the Federal Court only. Placing any
hindrances to access the Federal Court for the ongoing threats would be
unconstitutional. The District court has unjustly denied Bowling’s first Amended
Complaint(designated for ROA, but omitted). If this is representative of the
Federal Court’s “remedy” Bowling will surely be denied wrongfully for ensuing
abuses.

Leeal Standard
Parameters allowing aprefilinz injunction do not exist in this case
A prefiling injunction might fly under the All Writs Act 28 U.S.C. § 1651(a)
(2000), however courts have held that such injunctive relief is an extreme remedy
that should not be routinely granted, and that such relief is inappropriate unless
there is a real and immediate threat of future injury combined with objectionable
past conduct. See Payman v. Mirza, Nos. 2:02cv23, 2:02cv35, 2005 U.S. Dist.
LEXIS 14262, *8 (W.D. Va. July 18, 2005).
Discussion: Such condition of immediate threat of future injury does not
exist and this lawsuit is the only case that exist between Bowling and Willis. To
NOTE: It is Bowling who is experiencing repetitive injury inflicted by Willis.

Page | 45

Case: 19-40914

Document: 00515327347

Page: 46

Date Filed: 03/02/2020

No Res Judicata exist here
Leeal Standard: In granting pre-filing injunctions under the All Writs Act,
courts generally are concerned with preventing re-litigation of issues that have
already been decided. It is essentially “an extra arrow in the quiver of res judicata
and collateral estoppel.” Ezell v. Dan River, Inc., 2002 WL at *5.
Discussion: No such condition exists here. Bowling has never sued Greg
Willis in any other court as this is the only suit that exists. Willis, however, has
had honorable mention in Bowling’s Motion to Recuse Judge McCraw and in
Bowling’s Brief in the Fifth District Court of Appeals in Texas.

Tailored to the specific circumstances presented
Leeal Standard
Prefiling injunctions should be “tailored to the specific circumstances
presented,” such that no litigant shall be denied their day in court. Armstrong v.
Koury Corp.„ 2000 U.S. App. LEXIS at *2; see also Tinsley v. More Bus. Forms,
Inc., No. 93-2086, 1994 U.S. App. LEXIS 14208, *5 (4th Cir. June 9, 1994) (“An
absolute bar to filing actions would be patently unconstitutional.”); Pep Boys, 2005
U.S. Dist. LEXIS at *23-24 (“[S]o long as the injunction does not completely close
access to the court.... it should be tailored to the specific circumstances
presented.”).

Page | 46

Case: 19-40914

Document: 00515327347

Page: 47

Date Filed: 03/02/2020

Discussion: The prefiling injunction recommended by Judge Nowak and
issued in the US District Court by Judge Mazzant clearly states “Thepre-filing
injunction is not specific to any defendant, rather it is specific to this Court”.
This prefiling injunction is clearly not tailored to the circumstances
presented between Willis and Bowling. If this injunction was lawful it should
only pertain to Greg Willis alleged offenses and his circumstances with Bowling,
yet the District Court abuses their discretion and creates the injunction across a
broad scope of defendants, future discovery of new defendants, “or any civil
action” etc. (ROA.1521)

Right to bring suit in unrelated cases
Legal Standard: For example, in Cromer, the Fourth Circuit found too
broad an injunction that prevented the pro se plaintiff from making any future
filings in any case (even unrelated cases) in federal court without first obtaining
permission from the magistrate judge who issued the injunction. Cromer v. Kraft
Foods 390 F.3d at 819 (stating that although the plaintiff had proved to be a
“frequent filer” with respect to his employment discrimination suit, “nothing in the
record justified infringing upon his right to bring suit in unrelated cases”)
(emphasis in original).

Page | 47

Case: 19-40914

Document: 00515327347.

Page: 48

Date Filed: 03/02/2020

Discussion: The prefiling injunction prevents Bowling from bringing in
parties that participated in Dahlheimer criminal actions which the Trial Court
prevented. If Bowling desires to widen this case she should not be prevented by
the Federal District Court especially since the incorporation of certain entities
related are not local which would include Diversity jurisdiction.

Access to the courts for potentially meritorious claims in the future
Legal Standard: Likewise, in crafting the injunction issued in Payman, the
court first stated that it would “not enjoin [the plaintiff] from filing any actions
anywhere against the defendants or parties in privity with the defendants, as that
would deny [the plaintiff] access to the courts for potentially meritorious claims in
the future. Payman v. Mirza 2005 U.S. Dist. LEXIS at * 13.
Discussion: The current prefiling injunction violates Bowlings rights to add
parties to the current claim. The current defendants have a habit of blamethrowing
their offenses to others as Willis did to Sergeant Vance. Bowling should have the
right to add these parties to the current claim.

Page | 48

Case: 19-40914

Document: 00515327347

Page: 49

Date Filed: 03/02/2020

THIRD ISSUE
The Federal Court is refusing to answer to a pleadingforcing them to accountfor
omissions andfraud on the courtfiled before the prefiling injunction was issued.
They are using this prefiling injunction as a shield.
Leeal Standard'. No standard has been identified allowing the courts to use
a prefiling sanction retroactively to abandon previously filed motions for relief
(Rule 60 reconsideration), a Second Amended Complaint, and a Motion to
Supplement the Record on Appeal.
Discussion: After the US District Eastern Court wrongly dismissed
Bowling’s case against four litigants(which was issued 8/7/19), Bowling motioned
the court to reconsider under Rule 60 in two different motions. One was in regards
to the unjustified denial of Bowlings First Amended Complaint ROA. 1346-1355).
The other motion requested reconsideration based on detailed gross
misrepresentations, omissions, and fraud on the court(ROA.1314-1344). The
requests for reconsideration was an effort to allow the court to correct their errors
before it was necessary for an appeal.
Neither of these two motions have ever been addressed and it appears the US
District Court is abusing its discretion by issuing a prefiling injunction order
subsequently to these motions to justify not answering Bowling’s request for
relief.

Page| 49

Case: 19-40914

Document: 00515327347

Page: 50

Date Filed: 03/02/2020

I

The District court requested an additional amendment(The Second Amended
Complaint ROA.1417-1469) prior to the prefiling injunction, yet the court declines
to acknowledge it.
The District Court received Bowling’s Motion to Supplement the Record on
Appeal on January 27th, 2020, yet the court has not responded.

Page| 50

Case: 19-40914

Document: 00515327347

Page: 51

Date Filed: 03/02/2020

i

CONCLUSION AND PRAYER
If Greg Willis is not against the criminal aggression toward Bowling, then he
is for it. His conduct speaks for itself. Bowling does not deserve the harshness of
this; sanction, prefiling injunction.
Bowling’s prayer is that this Court reverse the District Court’s
Memorandum Adopting Report and Recommendation of the United State
Magistrate Judge, prefiling injunction(ROA. 1519-1522); that Bowling recover
their reasonable expenses and costs; and that they have such other and further
relief, at law or in equity, to which they are justly entitled. 1 Kings 3:9.

Wanda Bowling- Pro Se
APPELLANT
2024 W. 15th St. STE. F-138
Plano, Texas 75075
(770) 335-2539
wldalileimer@gmail.com

Page | 51

Case: 19-40914

Document: 00515327347

Page: 52

Date Filed: 03/02/2020

CERTIFICATE OF COMPLIANCE
I hereby certify that this brief complies with: (1) the type-volume limitations
of Fed. R. APP. P. 32(a)(7)(B) because the brief contains 8,111 words, excluding
the parts'of the brief exempted by Fed. R. APP. P. 32(a)(7)(B)(iii), according to the
word count function of the word processing system, Microsoft Word 365, used to
prepare the brief; and (2) the typeface requirements of Fed. R. App. P. 32(a)(5) and
the type style requirements of Fed. R. App. P. 32(a)(6) because this brief has been
prepared in a proportionally spaced typeface, Times New Roman in a 14 point
font, using Microsoft Word 365 (which is the same program used to calculate the
word count).

/

r

/

/

Wanda Bowling- Pro Se
APPELLANT
2024 W. 15th St. STE. F-13 8
Plano, Texas 75075
(770) 335-2539
wldahleimer@gmail.com

Page | 52

Case: 19-40914

Document: 00515327347

Page: 53

Date Filed: 03/02/2020

CERTIFICATE OF SERVICE
I hereby certify that a true and correct copy of the foregoing instrument has
been forwarded by first class mail or efiled to each attomey/party of record on this
date 3/6/2020.
/

Wanda Bowling- Pro Se
APPELLANT
2024 W. 15th St. STE. F-138
Plano, Texas 75075
(770) 335-2539
wldahleimer@gmail.com

Robert Davis
MATTHEWS, SfflELS, KNOTT,
EDEN, DAVIS & BEANLAND
8131 LBJ Freeway, #700
Dallas, Texas 75251
Tel. 972/234-3400
Fax 972/234-1750
Attorney for Greg Willis

Page | 53

Case: 19-40914

Document: 00515327347

Data Filed: 03/02/2020

Page: 54

' -ijffw
II

i

'?:!

■ ■ fH
IV

[IJ

li,

m
i

«

JY,

f

1IS
*■

kid

1fe

B3

; X.

I

s<
•tSOZflQB

,

ji

i

•i

,f

fij

ESS,

(972) 772-5444
Bowling
o/o PostNet TX199
2931 Ridge Road Ste 101

I !*i]

I

.e/.

fi

»?ffi.ra20

SSM^IWir

Rookuali TX 75032
US

BILL SENDER

iT0flTTN: HRS, TARDIE
H U.S. COURT OF APPEALS
rj;;i
•j
% 600 S Maestri PI
u STE 115
Orleans LA 70130
n !3if New
(504) 310-7700

%

-v.

. Ife

IS

DEPT i
II

IIJ
111

I

K

V

......... REFi 0160430

ZNVt

PO

iii

• -If
g:l
ta

€$ep

w

I

fl

I

liMhtBiKI

|

J

FedEx
Ground

!

p

TRK#

: ■: IE!
HHS;

3908 9059 0660
70130

m
res
1
m
WB
■:'.mm
I

h
/

•• £15*

H

9622 0019 0 (000 000 0000) 0 qq 3908 9059 0660

MafiJ

- .» .• .

iz

*

1

f

'X

ft

S?sa

hr
X

QM

<K

/$

£

fjifd

mm
\:c

iXSsai

r

5f

3
■

.*>

.. /mm

£2

Case: 19-40914

Document: 00515327371

Page: 1

Date Filed: 03/02/2020

United States Court ofAppeals
FIFTH CIRCUIT
OFFICE OF THE CLERK
TEL. 504-310-7700
600 S. MAESTRI PLACE,
Suite 115
NEW ORLEANS, LA 70130

LYLE W. CAYCE
CLERK

March 02, 2020

Ms. Wanda L. Bowling
2024 W. 15th Street
Suite F-138
Plano, TX 75075
No. 19-40914

Wanda Bowling v. Lester Dahlheimer, Jr.
USDC No. 4:18-CV-610

Dear Ms. Bowling,
However, you must make
We filed your brief,
corrections within the next 14 days. You may:

the

following

1.

Send someone to this office to correct the briefs;

2.

Send someone to pick up the briefs, correct and return them;

3.

Send a self-addressed stamped envelope and we will return
your briefs, (we will tell you the postage cost on request) .
You must then mail the corrected briefs to this office;

4.

Send corrected briefs and we will recycle those on file.

Opposing counsel's briefing time continues to run.
You need to correct or add:
Caption on the brief does not agree with the caption of the case
in compliance with Fed. R. App. P. 32(a) (2) (C) .
Caption must
exactly match the Court's Official Caption (See Official Caption
below)
Standard of review, see Fed. R. App. P. 28(a) (8) (B)-.
Your brief's binding does not conform with Fed. R. App. P. 32(a) (3) .
Briefs must be bound to permit them to lie reasonably flat when
opened.
Your brief has the wrong color cover,
see Fed. R. App. P. 32(a)(2).

The color should be blue,

Case: 19-40914

Document: 00515327371

Page: 2

Date Filed: 03/02/2020

Sincerely,
LYLE W. CAYCE, Clerk
By: __________ ,___________________

Shawn D.Henderson,Deputy Clerk
504-310-7668

cc:

Mr. Robert Jacob Davis

1

Case: 19-40914

Document: 00515327371

Case No.

Page: 3

Date Filed: 03/02/2020

19-40914

WANDA L. BOWLING,

Plaintiff - Appellant
v.
GREG WILLIS, in his Official and Individual Capacity,
Defendant - Appellee

APPENDIX C
Opinion dismissing complaints against John Roach
19-41003

APPENDIX C

Case: 19-41003

Document: 00515460581

Page: 1

Date Filed: 06/22/2020

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
United States Court of Appeals
Fifth Circuit

No. 19-41003
Summary Calendar

FILED
May 29, 2020
Lyle W. Cayce
Clerk

WANDA L. BOWLING,
Plaintiff - Appellant
v.

JUDGE JOHN ROACH, in his official and individual capacity,
Defendant - Appellee

Appeal from the United States District Court
for the Eastern District of Texas
USDC No. 4:19-CV-144

Before DAVIS, SMITH, and HIGGINSON, Circuit Judges.
STEPHEN A. HIGGINSON, Circuit Judge:*
Appellant Wanda Bowling was involved in divorce proceedings in Texas’s
296th District Court of Collin County. Judge John Roach presided over the
enforcement of Bowling’s divorce decree. Bowling brought this pro se 42 U.S.C.
§ 1983 action against Judge Roach in his official and individual capacity.1

* Pursuant to 5TH ClR. R. 47.5, the court has determined that this opinion should not
be published and is not precedent except under the limited circumstances set forth in 5TH
ClR. R. 47.5.4.
1 Bowling brought this suit after a failed attempt to remove her state court divorce
proceedings to federal court. Dahlheimer v. Bowling, No. 4:19-CV-22-ALM-CAN, 2019 WL

Case: 19-41003

Document: 00515460581

Page: 2

Date Filed: 06/22/2020

No. 19-41003
Bowling asserted four counts in her amended complaint: (1) unlawful seizure
of property; (2) lack of due process; (3) conspiracy to interfere with civil rights
by threats and intimidation; and (4) abuse of process. Bowling alleged a wideranging conspiracy among multiple judges to deprive her of notice, due process,
and property in the course of enforcing her divorce decree.2 Bowling sought
injunctive relief, including “[a]n order placing Plaintiff in the position that she
would have been in had there been no violation of her rights,” along with
damages.
Judge Roach moved to dismiss pursuant to Federal Rules of Civil
Procedure 12(b)(1) and (6). The district court referred the motion to dismiss to
a magistrate judge, who recommended granting the motion for various
reasons. Primarily, the magistrate judge recommended granting the motion
to dismiss because the claims against Judge Roach in his official capacity are
barred by the Eleventh Amendment and because the Younger abstention
doctrine bars claims against Judge Roach in his individual capacity.
Alternatively, the magistrate judge recommended dismissal of all claims under
Rule 12(b)(6) because Judge Roach is entitled to judicial immunity. Bowling
filed objections.

The district court adopted the recommendations of the

magistrate judge and granted the motion to dismiss. Bowling now appeals,
arguing that the district court erred by relying on Rules 12(b)(1) and (6) to
dismiss her claims. We conclude that Bowling’s arguments lack merit and
affirm the district court’s order dismissing Bowling’s claims.

948046, at *1 (E.D. Tex. Jan. 25, 2019), report and recommendation adopted sub nom.
Dahlheimer v. Bowling, No. 4:19-CV-22, 2019 WL 937313 (E.D. Tex. Feb. 26, 2019).
2 Bowling sued the alleged co-conspirators in separate lawsuits. See, e.g., Bowling v.
McCraw, No. 4:18-CV-610-ALM-CAN, 2019 WL 2517834 (Mar. 7, 2019 E.D. Tex.), report and
recommendation adopted sub nom. Bowling v. Dahlheimer, No. 4:18-CV-610, 2019 WL
3712025 (Aug. 7, 2019).

2

Case: 19-41003

Document: 00515460581

Page: 3

Date Filed: 06/22/2020

No. 19-41003
I.
We review de novo dismissals under Rules 12(b)(1) and (6).3 Bauer v.
Texas, 341 F.3d 352, 356-57 (5th Cir. 2003); Benton u. United States, 960 F.2d
19, 21 (5th Cir. 1992). Further, “[o]ur review of subject-matter jurisdiction is
plenary and de novo.” Google, Inc. v. Hood, 822 F.3d 212, 220 (5th Cir. 2016).
When a district court invokes an abstention doctrine, “we review [that ruling]
for abuse of discretion” but “review de novo whether the requirements of a
particular abstention doctrine are satisfied.” Id. (quoting Tex. Ass’n of Bus. v.
Earle, 388 F.3d 515, 518 (5th Cir. 2004)). We accept the factual allegations in
the complaint as true and resolve any ambiguities in the plaintiffs favor.
Benton, 960 F.2d at 21.
Because Bowling is proceeding pro se, we construe her pleadings
liberally. Howard v. King, 707 F.2d 215, 220 (5th Cir. 1983). However, pro se
litigants are not exempt from compliance with the relevant rules of procedure
and substantive law. Birl v. Estelle, 660 F.2d 592, 593 (5th Cir. 1981).

II.
As for Bowling’s claims against Judge Roach in his official capacity, the
district court held that Judge Roach is entitled to immunity under the
Eleventh Amendment.

We agree.

Absent an exception to or waiver of

sovereign immunity, “Texas judges are entitled to Eleventh Amendment
immunity for claims asserted against them in their official capacities as state
actors.” Davis v. Tarrant Cty., 565 F.3d 214, 228 (5th Cir. 2009); see also
Pennhurst State Sch. & Hosp. v. Halderman, 465 U.S. 89, 121 (1984).

3 Judge Roach argues that certain district court rulings should be reviewed for plain
error because Bowling did not properly object to the magistrate judge’s report and
recommendation. Because the standard of review is not determinative, and Bowling’s
pleadings are entitled to liberal construction, we review each issue de novo.

3

Case: 19-41003

Document: 00515460581

Page: 4

Date Filed: 06/22/2020

No. 19-41003
Bowling argues that the Ex Parte Young doctrine—which permits suit
against state officials in their official capacities so long as it seeks prospective
relief to redress an ongoing violation of federal law—applies here. Ex parte
Young, 209 U.S. 123, 167-68 (1908); Air Evac EMS, Inc. v. Tex., Dep’t of Ins.,
Div. of Workers’ Comp., 851 F.3d 507, 515-16 (5th Cir. 2017). In order to apply
Ex Parte Young, the “court need only conduct a ‘straightforward inquiry into
whether [the] complaint alleges an ongoing violation of federal law and seeks
relief properly characterized as prospective.”’ Verizon Md., Inc. v. Pub. Serv.
Comm’n ofMd., 535 U.S. 635, 645 (2002) (quoting Idaho v. Coeur d’Alene Tribe
of Idaho, 521 U.S. 261, 296 (1997) (O’Connor, J., concurring in part and
concurring in judgement)); see also Warnock v. Pecos Cty., 88 F.3d 341, 343 (5th
Cir. 1996).
Ex Parte Young does not apply here.

Though Bowling does seek

prospective injunctive relief,4 she does not allege “an ongoing violation of
federal law.” Verizon Md., Inc., 535 U.S. at 645. Bowling does not identify any
federal statute or provision of the United States Constitution that Judge Roach
is currently violating. Therefore, Bowling has not alleged facts that would
allow this court to infer any ongoing violation of federal law.
For these reasons, Bowling’s claims against Judge Roach in his official
capacity are barred by the Eleventh Amendment.

III.
As for Bowling’s claims against Judge Roach in his individual capacity,
the district court held that the Younger abstention doctrine bars this court
from considering those claims. See Younger v. Harris, 401 U.S. 37 (1971);

4 Specifically, Bowling seeks “[a]n Injunctive order permanently enjoining/restraining
Judge Roach from further acts of discrimination or retaliation.”

4

Case: 19-41003

Document: 00515460581

Page: 5

Date Filed: 06/22/2020

No. 19-41003
Middlesex Cty. Ethics Committee v. Garden State Bar Ass’n, 457 U.S. 423
(1982). We agree, to the extent Bowling’s claims seek injunctive relief.
Younger “applies to suits for injunctive and declaratory relief.” Google,
822 F.3d at 222. “Younger established that federal courts should not enjoin
pending state criminal prosecutions unless the plaintiff shows ‘bad faith,
harassment, or any other unusual circumstances that would call for equitable
reliefs,’ such as a ‘flagrantly and patently’ unconstitutional state statute.” Id.
(quoting Younger, 401 U.S at 53-54). “ Younger has been expanded beyond the
criminal context” and also applies to “pending civil proceedings involving
certain orders ... uniquely in furtherance of the state court’s ability to perform
their judicial functions.” Id. (quoting Sprint Commons, Inc. v. Jacobs, 571 U.S.
69, 78 (2013)); see also Middlesex Cty., 457 U.S. at 432 (applying Younger “to
non-criminal judicial proceedings when important state interests are
involved”). Where Younger applies, federal courts must abstain if “there is ‘(1)
an ongoing state judicial proceeding, which (2) implicates important state
interests, and (3) . . . provides an adequate opportunity to raise federal
challenges.’” Id. (quoting Sprint Commc’ns, Inc., 571 U.S. at 81). Notably,
“requests for monetary damages do not fall within the purview of the Younger
abstention doctrine.” Allen v. La. State Bd. of Dentistry, 835 F.2d 100, 104 (5th
Cir. 1988).
The first prong of Younger is satisfied here because there is “an ongoing
state judicial proceeding.” Google, 822 F.3d at 222 (citation omitted). “The
initial frame of reference for abstention purposes is the time that the federal
complaint is filed. If a state action is pending at this time, the federal action
must be dismissed.” DeSpain v. Johnston, 731 F.2d 1171, 1178 (5th Cir. 1984).
“In the most basic sense, a state proceeding is pending when it is begun before
the federal proceeding is initiated and the state court appeals are not
exhausted at the time of the federal filing.” Id. At the time Bowling filed her
5

Case: 19-41003

Document: 00515460581

Page: 6

Date Filed: 06/22/2020

No. 19-41003
federal complaint, Judge Roach had scheduled a hearing regarding the sale of
certain property outlined in her divorce decree. And not long before this suit
was filed, Judge Roach was issuing orders directed at Bowling, including an
order to appear. Clearly, at the time Bowling filed suit, the state action seeking
enforcement of her divorce decree had begun but was not yet complete.
Therefore, at the time of suit, there was “an ongoing state judicial proceeding.”
Google, 922 F.3d at 222 (citation omitted).
The second prong of Younger is satisfied because the ongoing state
judicial proceeding “implicates important state interests.”

Id. (citation

omitted). “Family relations are a traditional area of state concern.” Moore v.
Sims, 442 U.S. 415, 435 (1979). Likewise, the division of marital assets in the
course of enforcing a divorce decree falls within the ambit of important state
interest. See Estate of Merkel v. Pollard, 354 F. App’x 88, 94 (5th Cir. 2009)
(“[T]he importance of Texas’ interest in its own domestic-relations law is
obvious.”); Jasper v. Hardin Cty. Sheriffs Dep’t, No. l:ll-CV-408, 2012 WL
4480713, at *9—10 (E.D. Tex. Sept. 5, 2012), report and recommendation
adopted, No. l:ll-CV-408, 2012 WL 4472261 (Sept. 26, 2012). Indeed, the
Texas Family Code contains clear instructions for Texas judges enforcing
property division in divorce decrees, signaling Texas’s strong interest in the
matter. See, e.g., Tex. Fam. Code §§ 9.001, 9.002; cf. Estate of Merkel, 354 F.
App’x at 95 (finding it relevant to the Burford abstention doctrine that Texas
had “created ‘a special state forum for judicial review’ of divorce actions”
(quoting Tex. Gov. Code Ann. § 24.601).
The third prong of Younger is satisfied because the state judicial
proceeding “provides an adequate opportunity to raise federal challenges.”
Google, 822 F.3d at 222 (citation omitted). “[Ajbstention is appropriate unless
state law clearly bars the interposition of the constitutional claims.” Moore,
442 U.S. at 425-26. Where “a litigant has not attempted to present his federal
6

Case: 19-41003

Document: 00515460581

Page: 7

Date Filed: 06/22/2020

No. 19-41003
claims in related state-court proceedings,” we “assume that state court
procedures will afford an adequate remedy, in the absence of unambiguous
authority to the contrary.” Pennzoil Co. v. Texaco, Inc., 481 U.S. 1, 15 (1987).
Bowling has not alleged any defect in the state court proceedings or in Texas
law that “clearly bars” her ability to raise her constitutional claims.5
Therefore, we assume that the divorce decree enforcement proceedings below,
and the proceedings that led to the original divorce decree, provided “an
adequate opportunity” to raise federal challenges. Google, 822 F.3d at 222
(citation omitted).
For these reasons, the district court correctly abstained from
adjudicating Bowling’s equitable claims against Judge Roach in his individual
capacity under Younger.

IV.
As for Bowling’s damages claims against Judge Roach, judicial immunity
shields the judge from those claims. “Judicial immunity is an immunity from
suit and not just from the ultimate assessment of damages.” Ballard v. Wall,
413 F.3d 510, 515 (5th Cir. 2005). Judicial immunity can be pierced in two
circumstances: (1) “a judge is not immune from liability for nonjudicial actions,
i.e., actions not taken in the judge’s judicial capacity”; and (2) “a judge is not
immune from actions, though judicial in nature, taken in the complete absence
of all jurisdiction.” Mireles v. Waco, 502 U.S. 9, 11—12 (1991).
Bowhng argues that Judge Roach engaged in a “nonjudicial action[j”
when he allegedly instructed his court reporter to delay the release of

5 Bowling has not exhausted the state appellate process. Cf. Jasper, 2012 WL 4480713,
at *10 (noting the availability of a right to appeal the state court’s decision when assessing
whether the state court proceedings afforded an adequate opportunity for plaintiff to raise
constitutional challenges). Given this further avenue for relief, any argument that Bowhng
cannot obtain relief from Judge Roach because of his alleged bias is unavailing.

7

Case: 19-41003

Document: 00515460581

Page: 8

Date Filed: 06/22/2020

No. 19-41003
transcripts in order to delay or thwart Bowling’s ability to appeal.
Communications Judge Roach had with his court reporter regarding courtroom
management and administration fall within his judicial capacity. Therefore,
Judge Roach’s judicial immunity withstands this attack.
Bowling also argues that Judge Roach acted “in the complete absence of
all jurisdiction” when he ordered the entire proceeds of a property sale to be
awarded to her ex-husband (rather than half of the proceeds).

Bowling

contends that Judge Roach exceeded the bounds of the divorce decree and
thereby exceeded his jurisdiction.

Bowling’s arguments are unpersuasive.

“Where a court has some subject matter jurisdiction, there is sufficient
jurisdiction for immunity purposes.” Malina v. Gonzales, 994 F.2d 1121, 1125
(5th Cir. 1993). Here, the court made a finding that the disputed property was
within its jurisdiction. And Texas has given its courts the power to enforce
divorce decrees. See Tex. Fam. Code. §§ 9.001, 9.002; Pearson v. Fillingim, 332
S.W.3d 361, 363 (Tex. 2011). Even assuming that Judge Roach ‘“acted in
excess of his authority,’ Qhe is still protected by judicial immunity.” Ballard,
413 F.3d at 517 (quoting Malina, 994 F.2d at 1125). That is because “a judge
is not deprived of immunity” merely “because the action he took was in error,
was done maliciously, or was in excess of his authority; rather, he will be
subject to liability only when he has acted in the clear absence of all
jurisdiction.” Davis v. Bayless, 70 F.3d 367, 373 (5th Cir. 1995) (citation
omitted).
For these reasons, Judge Roach is judicially immune to Bowling’s
damages claims and those claims are properly dismissed.

V.
Finally, although Bowling devotes significant portions of her briefing to
qualified immunity and the applicability of the Rooker-Feldman doctrine, the
8

Case: 19-41003

Document: 00515460581

Page: 9

Date Filed: 06/22/2020

No. 19-41003
district court’s dismissal order did not rest on either of those legal precepts.
Therefore, we need not address whether they apply.

VI.
We affirm.

9

APPENDIX D
Motion for Rehearing Denied
19-41003

APPENDIX D

Case: 19-41003

Document: 00515528340

Page: 1

Date Filed: 08/14/2020

QSntteti States Court of Appeals
for tljc Jftftt) Circuit
No. 19-41003

WANDA L. BOWLING
Plaintiff—Appellant,
versus
JUDGE JOHN ROACH, IN HIS OFFICIAL AND INDIVIDUAL
CAPACITY,
Defendant—Appellee.

Appeal from the United States District Court
Eastern District of Texas
USDC No. 4:19-CV-144

ON PETITION FOR REHEARING
Before Davis, Smith, and Higginson, Circuit Judges.
Per Curiam:
IT IS ORDERED that Appellant's motion for leave to file petition
for rehearing out of time is GRANTED.
IT IS FURTHER ORDERED that the petition for rehearing is
DENIED.

APPENDIX E
Texas judicial statistics
Greg Abbott judicial appointments

APPENDIX E

TEXAS JUDICIAL APPOINTMENTS

Years

1973-1979
1979-1983
1983-1987
1987-1991
1991-1995
1995-2000
2000-2015
2015-2019

Governor

Years
,Served

# of
Appointed
Judges

Briscoe
Clements

4
4

0
2

White

4
4

0
5

Clements
Richards
Bush

4

1

4

0

Perry

16

Abbott

4

113
109

GREG ABBOTTS JUDICIAL APPOINTMENTS PER
ittps://gov.texas.gov/search?q=appointments
Commission Judicial Conduct
Janis Holt
11/2019
5th Administrative Judicial Region
Missy Medary
11/2019
460th Judicial District
Geoffrey Puryear
11/2019
78th Judicial District
Meredith Kennedy
11/2019
339th Judicial District
Jesse
McClure
III
11/2019
7th Court of Appeals
Lawrence M. “Larry”
11/2019
Doss
5th Court of Appeals
David Evans
10/2019
193rd Judicial District
Evan
10/2019
8th Court of Appeals
Jeff Alley
9/2019
366th Judicial District
Tom Nowak
9/2019
468th Judicial District
Lindsey Wynne
9/2019
2nd Court of Appeals
Mike Wallach
9/2019
348th Judicial District
Megan
Fahey
9/2019
454th Judicial District
Danny Kindred
8/2019
464th Judicial District
Ysmaell Fonseca
8/2019
Texas Supreme Court
Jane Bland
8/2019
471s Judicial District
Andrea Bouressa
8/2019
County Jud. Colling county
Christopher Hill
7/2019
464th Judicial District
Jaime Tijerina
7/2019
461st Judicial District
Patrick
Bulanek
7/2019
Nueces County Judge
Tim McCoy
7/2019
Commission Judicial Conduct
Valerie Ertz
7/2019
Commission Judicial Conduct
Fred Tate
7/2019
13th Court of Appeals
Tijerina
7/2019
7th Administrative Judicial Region
Dean Rucker
4/2019
18th Judicial District
Sydney Hewlett
3/2019
Page 1 of 3

2/2019
2/2019
2/2019
2/2019
2/2019
1/2019
1/2019
1/2019
1/2019
12/2018
11/2018
11/2018
11/2018
10/2018
10/2018
9/2018
8/2018
8/2018
8/2018
8/2018
8/2018
8/2018
8/2018
6/2018
6/2018
6/2018
6/2018
6/2018
6/2018
4/2018
12/20/2018
11/2018
6/2018
5/2018
3/2018
3/2018
2/2018
2/2018
12/9/17
11/2017
11/2017
11/2017
10/2017
10/2017

Brett Busby
John Neil
David Evans
Jared Robinson
Jaime Tijerina,
Greg Perkes
Ashley Wysocki
Angela Saucier
Dana Womack
Lee Arm Breading
David Junkin
Carmen Dusek
Steve Parkhurst
Christopher Wolfe
Billy Ray Stubblefield
John Bailey
Kimberly Fitzpatrick
Sydney Hewlett
Jared Robinson
Grant Kinsey
Andrea Bouressa
Christopher Wolfe
Debra Ibarra Mayfield
Kimberly Fitzpatrick
Paul LePak
Brock Smith
David Evans
Jaime Tijerina
Doug Wallace
Larry Phillips
Lee Ann Breading
Dabney Bassel
Maricela Alvarado and
Amy Suhl
Olen Underwood
Ray Wheless
Susan Brown
Jimmy Blacklock
Alfonso Charles
Dustin Howell
Wade Birdwell
Angelina D.A. Gooden
Livia Francis
Andria Bender
Joey Contreras

Texas Supreme Court
10th Court of Appeals
95th Judicial District
405th Judicial District
464th- Judicial District
13 th Court of Appeals
254th Judicial District
76th Judicial District
2nd Court of Appeals
462nd Judicial District
453rd Judicial District
51st Judicial District
260th Judicial District
213th Judicial District
3rd Administrative Judicial Region
11th Court of Appeals
342nd Judicial District
18th Judicial District
405th Judicial District
440th Judicial District
471st Judicial District
213th Judicial District
190th Judicial District
342nd Judicial District
264th Judicial District
271st Judicial District
8th Administrative Judicial Region
93 rd Judicial District
378th Judicial District
59th Judicial District
462th Judicial District
2nd Court of Appeals
Commission Judicial Conduct
2nd Administrative Judicial Region
1st Administrative Judicial Region
11th Administrative Judicial Region
Texas Supreme Court
10th Administrative Judicial Region
459th Judicial District
2nd Court of Appeals
280th Judicial District
283rd Judicial District
506th Judicial District
187th Judicial District
Page 2 of 3

*

10/2017
10/2017
10/2017
10/2017
10/2017
9/2017
9/2017
9/2017
9/2017
8/2017
8/2017
8/2017
1/2017
1/2017
12/2016
12/2016
12/2016
12/2016
12/2016
8/2016
6/2016
6/2016
4/2016
4/6/16
3/21/16
12/2015
10/2015
10/2015
10/2015
8/2015
8/2015
8/2015
8/2015
8/2015
8/2015
8/2015
7/2015
5/2015
3/2015

Brock Smith
Michael Davis
Bonnie Sudderth
Darrick McGill
Sujeeth Draksharam
Kenneth S. Cannata
Kristin Guiney
Debra Ibarra Mayfield
Jennifef Caughey
Sid Harle
Josh Burgess
Judy Parker
Jason Boatright
Mark Pittman
Kelly Moore
Steve Abies
David Peeple
Bill Palmer, Jr.
Grant Kinsey
Robert E. “Bobby”
Bell
Trey Didway
Phil Grant
Wes Tidwell
Patty Maginnis
Ryan Larson
Alyssa Lemkuil
Rene De Coss
Missy Medary
Don Clemmer
Susan Rankin
David Perwin
Chad Bridges
Emily Miskel
Piper McCraw
Sara Kate Billingsley
John M. “Mike”
Swanson
Erin Lunceford
Debra Ibarra Mayfield
Charles M. Barnard

271st Judicial District
369th Judicial District
2nd Court of Appeals
Commission Judicial Conduct
Commission Judicial Conduct
458th Judicial District
232nd Judicial District
190th Judicial District
1st Court of Appeals
4th Administrative Judicial Region
352nd Judicial District
7th Court of Appeals
5th Court of Appeals
2nd Court of Appeals
9th Administrative Judicial Region
6th Administrative Judicial Region
4th Administrative Judicial Region
451st Judicial District
440th Judicial District
267th Judicial District
121st Judicial District
9th Judicial District
6th Judicial District
435th Judicial District
395th Judicial District
507th Judicial District
445th Judicial District
5th Administrative Judicial Region
450th Judicial District
254th Judicial District
505th Judicial District
240th Judicial District
470th Judicial District
469th Judicial District
446th Judicial District
143rd Judicial District
61st Judicial District
165th Judicial District
89th Judicial District

Page 3 of 3

